                OFFICE OF INSPECTOR GENERAL

          LIMITED SCOPE AUDIT REPORT
                                    ON SELECTED
                                   NEA GRANTS TO

                                       Arts Midwest
                                     Minneapolis, MN

                            REPORT NO. LS-13-01
                                     January 11, 2013




                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION
BACKGROUND
Arts Midwest (AMW) is a non-profit regional arts organization, based in Minneapolis,
MN. AMW promotes creativity, nurtures cultural leadership, and engages people in
meaningful arts experiences, bringing vitality to Midwest communities and enriching
people’s lives. AMW serves audiences, arts organizations, and artists throughout the
nine states of Illinois, Indiana, Iowa, Michigan, Minnesota, North Dakota, Ohio, South
Dakota, Wisconsin, and beyond.

OBJECTIVE, SCOPE, AND METHODOLOGY
Limited scope audits involve a limited scope review of financial and non-financial
information of grant recipients to ensure validity and accuracy of reported information,
and compliance with Federal requirements. The objective of this limited scope audit by
the National Endowment for the Arts (NEA) Office of Inspector of General (OIG) was to
determine whether the:

   •   grantee fulfilled the financial and compliance requirements as set forth in the
       grant awards;
   •   total project costs claimed under the grants were reasonable, allocable, and
       allowable; and
   •   required match was met on NEA grant funds.

Our audit was conducted in accordance with the Government Auditing Standards (2011),
issued by the Comptroller General of the United States. Accordingly, we included such
tests of records and other auditing procedures that were considered necessary under the
circumstances. The "Standards" require that we obtain sufficient, appropriate evidence to
afford a reasonable basis for our findings and conclusions. We evaluated the recipient's
compliance with the U.S. Office of Management and Budget (OMB) and NEA guidance.
In addition, we evaluated the recipient’s compliance with OMB and NEA guidance for
the management of the American Reinvestment and Recovery Act of 2009 (Recovery
Act) funding.

The Recovery Act provided $50 million to the NEA to be distributed in direct grants to
fund arts projects and activities which preserve jobs in the nonprofit arts sector threatened
by declines in philanthropic and other support during the current economic downturn.
Consistent with the language in the Act, eligible projects are generally limited to salary
support and fees for artists or contracted personnel.

During the period under review, AMW had six grants and 16 cooperative agreements.
We reviewed three of the six grants in which funds had been drawn down and costs had
been reported. We also reviewed two of the 16 cooperative agreements.




                                             1
The grants and cooperative agreements we reviewed were as follows:

 Grant/Cooperative          Original Award          De-Obligated          Adjusted Award
  Agreement No.                Amount                 Amount                 Amount
   08-6100-2054                  $ 1,465,800                                   $ 1,465,800
   09-6100-2007                    1,559,490                                      1,559,490
   09-6188-2093                      542,000                                        542,000
      2007-21                      9,272,217                $344,434              8,927,783
      2010-01                      1,525,000                  36,344              1,488,656
     TOTAL                       $14,364,507                $380,778           $13,983,729

PRIOR AUDIT COVERAGE
During the past five years, the NEA OIG has not issued any audit reports on Federal
grants and/or cooperative agreements awarded to AMW. As of our site visit during the
week of July 31, 2012, the most recent issued independent auditor’s report on AMW was
for the fiscal year ended June 30, 2011. The audit was conducted by Schechter Dokken
Kanter Andrews and Selcer Ltd., an independent CPA firm, which issued an unqualified
(clean) opinion. The independent CPA firm also performed the A-133 audit and
determined that AMW was in compliance with applicable federal regulations.

                             RESULTS OF AUDIT
Our limited scope audit concluded that AMW did not comply with requirements
established by OMB and NEA for its Recovery Act funds awarded under Grant No. 09-
6188-2093. AMW included costs incurred outside of the grant period in its total outlays
reported on its final Federal Financial Report (FFR).

Our limited scope audit also concluded that AMW did not comply with requirements
established by OMB and NEA for its NEA Grant No. 08-6100-2054. AMW included
unallowable costs in its total outlays reported on its final FFR. Details are presented in
the narrative below.

                       FINANCIAL MANAGEMENT
RECOVERY ACT AWARD No. 09-6188-2093
Costs Incurred Outside of the Grant Period

AMW included personnel costs incurred outside of the grant period. We reviewed two
personnel costs transactions for salaries and related fringe benefits charged to the grant
for the month of June 2010. We determined that an employee's salary costs for that
month was overstated due to the employee receiving a retroactive salary increase. This
employee was given an increase for the months of September 2008 through June 2010.




                                             2
However, the grant period began April 1, 2009. Therefore, personnel costs from
September 2008 to March 2009 are outside of the grant period.

NEA's Instructions for Completing the Financial Status Report and General Terms and
Conditions for Grants and Cooperative Agreements to Organizations, states:

        All project activities and the commitment of project funds must take place within
        the period of support set out in your award document.

As a result of AMW charging costs that incurred outside of the grant period, we are
questioning $1,385 in salaries and $106 in related fringe benefits for a total of $1,491.
However, AMW provided additional documentation for personnel costs that were not
previously charged to the grant. As a result, the questioned costs and potential refund
were eliminated. 1

NEA GRANT No. 08-6100-2054
Unallowable Costs

AMW included costs for alcoholic beverages which is unallowable in accordance with
OMB Circular A-122, Attachment B, Part 3. As a result of AMW charging unallowable
costs to the grant, we are disallowing $1,730 of alcoholic beverages and applicable
gratuity.

We recommend that AMW develop written policies and implement procedures to ensure
that only allowable and accurate costs charged to the project are reported on its FFR.
The policy should also require that employees who prepare FFRs are familiar with OMB
cost principles.

AMW also charged unallowable foreign travel costs to the grant without prior approval.

OMB Circular A-122, Attachment B, Part 51.e. Foreign Travel, states:

        Direct charges for foreign travel costs are allowable only when the travel received
        prior approval of the awarding agency. Each separate foreign trip must receive
        such approval. For purposes of this provision, "foreign travel" includes any travel
        outside Canada, Mexico, the United States, and any United States territories and
        possessions. However, the term "foreign travel" for a non-profit organization
        located in a foreign country means travel outside that country.

As a result of AMW charging unallowable foreign travel costs to the grant, we are
disallowing $13,137.



1
 The Recovery grants did not have matching requirements; therefore, AMW only reported costs up to the
award amount although there were additional personnel costs used for Recovery Act activities.




                                                  3
We recommend that AMW develop written policies and implement procedures to ensure
that written approval is obtained from NEA for all foreign travel not identified in its
application or revised budget before travel is undertaken.

If all of the above costs, for alcohol and foreign travel, were disallowed for this grant, the
matching requirement would still be met and no refund would be due to NEA. Details
below:

Total Costs Claimed                                            $3,128,396
       Less: Unallowable Alcohol Beverages                          (1,730)
       Less: Unallowable Foreign Travel                            (13,137)
Total Allowable Costs                                          $3,113,529
       NEA Share                                                1,465,800
       Allowable Matching Costs                                $1,647,729
       AMW Matching Requirement                                 1,465,800

Amount in Excess of the Matching Requirement                   $ 181,929

                              EXIT CONFERENCE
An exit conference was held with AMW officials on January 7, 2013. AMW officials
concurred with our findings and recommendations.

                            RECOMMENDATIONS
We recommend that AMW:

   1. Develop written policies and implement procedures to ensure that only allowable
      and accurate costs charged to the project are reported on its FFR. The policy
      should also require that employees who prepare FFRs are familiar with OMB cost
      principles.

   2. Develop written policies and implement procedures to ensure that written
      approval is obtained from NEA for all foreign travel not identified in its
      application or revised budget before travel is undertaken.




                                              4
